                      ort




    FOOD SERVICE CONTRACTS AT DOD DINING FACILITIES



Report No. 98-131                         May 7, 1998




              Office of the Inspector General
                  Department of Defense
  Additional Information and Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
  General, DOD Home Page at: WWW.DODIG.OSD.MIL.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support
  Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
  and requests can also be mailed to:

                     OAIG-AUD (ATTN: APTS Audit Suggestions)
                     Inspector General, Department of Defense
                     400 Army Navy Drive (Room 801)
                     Arlington, Virginia 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to
  Hotline@DODIG.~OSD.MIL; or by     _ writing
                                       .---    to
                                               -_ the__Defense
                                                          .    _Hotline,
                                                                   _     .The
  Pentagon, Washington, D.C. 20301- 1900. The identity of each writer and caller
  is fully protected.




Acronyms
                     Federal Acquisition Regulation
                     National Industries for the Severely Handicapped
                             INSPECTOR     GENERAL
                             DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                             ARLINGTON. VIRGINIA 22202




                                                                           May 7, 1998
MEMORANDUM FOR ASS [STANT SECRETARY OF DEFENSE (FORCES
                     ANAGEMENT POLICY)
               DIi XTOR, DEFENSE PROCUREMENT
               ASS [STANT SECRETARY OF THE NAVY (FINANCIAL
                     :ANAGEMENT AND COMPTROLLER)
               AS! [STANT SECRETARY OF THE AIR FORCE
                  (I TNANCIAL MANAGEMENT AND COMPTROLLER)
               DIR XTOR, DEFENSE LOGISTICS AGENCY
               AU1 bITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Audit on Food Service Contracts at DOD Dining Facilities
         (Report No. 98-131)


        We are providing this report for information and use. We conducted the audit
in response to allegations referred by the Inspector General, Department of Education,
and concerns expressed by the Army regarding the award of food service contracts at
DOD dining facilities. Army comments on a draft of this report were considered in
preparing the final report.

       We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. Joseph P. Doyle at (703) 604-9348 (DSN 664-9348), or
Mr. Ronald W. Hodges at (703) 604-9340 (DSN 6649340). See Appendix C for the
report distribution. Audit team members are listed inside the back cover.




                                         David K. Steensma
                                  Deputy Assistant Inspector General
                                            for Auditing
                        Office of the Inspector General, DOD
Report No. 98-131                                                         May 7, 1998
   (Project No. 7CK-5045)

               Food Service Contracts at DOD Dining Facilities

                               Executive Summary

Introduction. We conducted the audit in response to allegations referred by the
Inspector General, Department of Education, and concerns expressed by the Army
regarding food service contracts that were awarded under the Randolph-Sheppard and
National Industries for the Severely Handicapped Programs. The programs support
blind and disabled individuals. The allegations stated that DOD did not pay fair and
reasonable prices for food service contracts at DOD dining facilities, and that DOD
improperly used funds appropriated for DOD dining facilities to fund nonappropriated
activities. The allegations also stated that DOD did not comply with Randolph-
Sheppard Act (the Act) requirements that give priority to blind managers when
awarding food services contracts at DOD dining facilities. The Army expressed
concern that the price of contracts awarded under the Randolph-Sheppard Program was
excessive. For FY 1997, food service contracts awarded under the two programs at
Army and Air Force dining facilities totaled $38.2 million.

Audit Objectives. The audit objectives were to determine whether DOD paid fair and
reasonable prices for food service contracts at DOD dining facilities, and whether DOD
appropriately used funds provided for food service contracts. The audit focused on
food service contracts that DOD awarded under the Randolph-Sheppard and National
Industries for the Severely Handicapped Programs. We reviewed applicable laws and
regulations to determine if a Randolph-Sheppard priority existed for food service
contracts at DOD dining facilities. We also reviewed the management control program
as it applied to the audit objectives.

Audit Results. We did not substantiate the allegations and concerns received from the
Department of Education and the Army. The Army and Air Force paid fair and
reasonable prices for DOD dining facility food service contracts that were awarded
under both the Randolph-Sheppard and the National Industries for the Severely
Handicapped Programs. DOD did not use funds appropriated for food service at DOD
dining facilities to fund nonappropriated activities. We could not determine whether a
Randolph-Sheppard priority exists when awarding food service contracts at DOD dining
facilities. The Act does not specify that the Randolph-Sheppard priority applies to
DOD dining facilities. For FY 1999, DOD submitted a proposal to Congress to amend
the Act that would specifically exempt DOD dining facilities from the Randolph-
Sheppard priority. See Appendix A for a discussion of the audit process and
Appendix B for a proposed DOD amendment to the Act.
Management Comments. The Acting Assistant Secretary of the Army (Research,
Development and Acquisition) provided comments on a draft of this report. The
Acting Assistant Secretary disagreed with the audit conclusion that the Army paid fair
and reasonable prices for DOD dining facility food service contracts that were awarded
under the Randolph-Sheppard Program. The Acting Assistant Secretary did not
consider quality a relevant factor under best value contract awards, stating that price
analysis would have determined that the Army did not pay fair and reasonable prices
for food service contracts awarded under the Randolph-Sheppard Program. Also, the
Acting Assistant Secretary’s position is that the Randolph-Sheppard priority does not
apply to food service contracts at DOD dining facilities. See Part I for a summary of
the comments and Part III for a full text of the comments.

Audit Response. We disagree with the Acting Assistant Secretary’s position that the
Army did not obtain fair and reasonable prices on military dining facility food service
contracts awarded under the Randolph-Sheppard Program. At the time of our audit,
the Army had three contracts awarded under the Randolph-Sheppard Program. Two
were awarded using best value selection practices and one was awarded based on price
alone. In the case of the two contracts awarded using best value practices, we
determined that Army contracting officials properly evaluated and relied on both
quality and price to ensure that the Army paid fair and reasonable prices for military
dining facility food service contracts awarded under the Randolph-Sheppard Program.
Both contracting officers complied with existing acquisition regulations and guidance
on the use of best value contracting procedures. Both contracting offkers determined
that the combination of quality and price was the best value to the Army. The Acting
Assistant Secretary’s focus on price analysis alone implies that quality is not relevant
when determining a fair and reasonable price for food service contracts awarded using
best value contracting procedures. This is inconsistent with the guidance on best value
contracting promulgated by the Acting Assistant Secretary’s office. The applicability
of the Randolph-Sheppard Act to food service contracts at DOD dining facilities is a
legal issue. If the Acting Assistant Secretary’s position was correct, DOD would not
have submitted legislation to clarify the applicability of the Randolph-Sheppard Act to
food service contracts at military dining facilities. We support the intent of the
proposed legislation.




                                            ii
Table of Contents
Executive Summary

Part I - Audit Results
      Audit Background                                              2
      Audit Objectives                                              3
      Food Service Contracts                                        4

Part II - Additional Information
      Appendix A. Audit Process                                     10
        Scope and Methodology                                       10
        Management Control Program                                  11
      Appendix B. Randolph-Sheppard Act Excerpts and Proposed DOD
                  Amendment to the Act                              12
      Appendix C. Report Distribution                               14

Part III - Management Comments

      Department of the Army Comments                               18
Part I - Audit Results
Audit Background
    Introduction. We conducted the audit in response to allegations referred by the   .
    Inspector General, Department of Education, and concerns expressed by the
    Army regarding food service contracts that were awarded under the Randolph-
    Sheppard and National Industries for the Severely Handicapped (NISH)
    Programs. The programs support blind and disabled individuals. The
    allegations stated that DOD did not pay fair and reasonable prices for food
    service contracts at DOD dining facilities, and that DOD improperly used funds
    appropriated for DOD dining facilities to fund nonappropriated activities. The
    allegations also stated that DOD did not comply with 20 United States Code,
    Section 107, Randolph-Sheppard Act (the Act) requirements that give priority to
    blind managers when awarding food services contracts at DOD dining facilities.
    The Act authorized the Randolph-Sheppard Program. The Army expressed
    concern that the price of contracts awarded under the Randolph-Sheppard
    Program was excessive.

    For FY 1997, the Army and Air Force had 12 full-food service dining facility
    contracts that were awarded under the Randolph-Sheppard and NISH Programs.
    The contract values were $38.2 million. The Navy did not use full-food service
    contracts to operate its dining facilities. In addition to full-food service
    contracts, NISH also performs attendant-food service contracts that provide
    personnel to support military cooks and cashiers at DOD dining facilities. The
    attendant contracts, which were not part of our review, employ contractor
    personnel in positions such as busboy, food server, and dishwasher.

    Randolph-Sheppard Program. The Act requires the Government to offer
    blind vendors a priority in the Randolph-Sheppard Program to operate (manage)
    vending facilities on Federal property. The Act defmes vending facility as,
    “automatic vending machines, cafeterias, snack bars, cart services, shelters,
    counters, and other such auxiliary equipment . . . . n The Department of
    Education administers the Randolph-Sheppard Program and requires blind
    managers in the program to be licensed by their state rehabilitation agency.

    NISH Program. 41 United States Code, Section 46, the Javits-Wagner-O’Day
    Act requires the Government to purchase certain supplies and services from
    nonprofit agencies, such as NISH. The Committee for Purchase From People
    Who Are Blind or Severely Disabled (the Committee), an independent
    Government organization, determines and maintains a list of those supplies and
    services to be purchased from NISH. The Committee also establishes prices for
    the NISH supplies and services.

    Federal Acquisition Regulations. Subpart 8.7 of the Federal Acquisition
    Regulation (FAR), “Acquisition From Nonprofit Agencies Employing People
    Who are Blind or Severely Disabled, ” establishes policies and procedures for
    awarding NISH contracts. When purchasing services, the FAR requires
    Government offices to offer NISH contractors the first priority followed by
    Federal Prison Industries, Inc.




                                        2
     The FAR does not establish a priority for Randolph-Sheppard contractors or
     policies and procedures for awarding Randolph-Sheppard contracts. In 1994,
     the Department of Education proposed a FAR change to establish a priority for
     Randolph-Sheppard contractors that would include DOD dining facilities.
     However, in 1996, the Department of Education withdrew the proposed FAR
     change because of a revised proposal submitted by the Defense Acquisition
     Regulations Council that would exempt DOD dining facilities. The Department
     of Education stated that the revised proposal would inhibit rather than further
     the Randolph-Sheppard priority.

     DOD Policy. DOD Directive 1125.3 establishes policy for the Randolph-
     Sheppard Program. The Directive states that blind vendors will be given a
     priority in the award of contracts to operate cafeterias. Comptroller General
     Report B-250783.2, “Air Force Reconsideration,” June 4, 1993, holds that
     military dining facilities are “cafeterias” within the definition of vending
     facilities under the Directive.

Audit Objectives
     The audit objectives were to determine whether DOD paid fair and reasonable
     prices for food service contracts at DOD dining facilities and whether DOD
     appropriately used funds provided for food service contracts. Specifically, we
     reviewed food service contracts awarded under the Randolph-Sheppard and
     NISH Programs. We reviewed applicable laws and regulations to determine if a
     Randolph-Sheppard priority existed for food service contracts at DOD dining
     facilities. We also reviewed the management control program as it applied to
     the other audit objectives. See Appendix A for a discussion of the audit
     process.
            Food Service Contracts
            The Army and Air Force paid fair and reasonable prices for DOD dining
            facility food service contracts that were awarded under the Randolph-
            Sheppard and NISH Programs. The price of contracts awarded under
            both programs was in accordance with applicable laws and regulations.
            Also, DOD properly used the funds appropriated for food service
            contracts at DOD dining facilities. We could not determine whether a
            Randolph-Sheppard priority exists for awarding food service contracts at
            DOD dining facilities.


Contract Price
     The prices of the Randolph-Sheppard and NISH contracts we reviewed were fair
     and reasonable. The prices included costs that were unique to the respective
     programs; however, the costs were allowable and in accordance with established
     program policies.

     Randolph-Sheppard      Contract. The price of the Randolph-Sheppard contract
     at Fort Campbell, Kentucky, was fair and reasonable. The contractor’s base
     price of $3.4 million was well within the competitive range. The contract was
     awarded using a best value selection process that considered quality as well as
     price. The contracting officer determined that the Randolph-Sheppard
     contractor offered the best value to the Government, considering both price and
     quality. The contract price included annual costs of $214,000 associated with
     the Randolph-Sheppard program.

     The Randolph-Sheppard program costs provided salary, benefits, and profit for
     the blind manager and a fee for the state licensing agency. The Randolph-
     Sheppard contractor is the product of a joint venture between a blind individual
     and the prior food service contractor. The joint venture agreement, in effect,
     added a manager position to the food service contractor’s existing organization
     to accommodate the blind individual.

     NI!$H Contracts. The prices for the NISH food service contracts at
     Vandenburg and Sheppard Air Force Bases were fair and reasonable. Because
     NISH contracts are not competitively awarded, we determined price
     reasonableness by comparing prices to pricing guidance established by the
     Committee as well as comparing prices to actual costs.

             Vandenburg Air Force Base. The annual price of $3.0 million on the
     food service contract at Vandenburg Air Force Base, California, was consistent
     with guidelines established by the Committee. Actual costs for categories
     representing 98 percent of the contract price differed by less than 1 percent from
     those in the contract. The price included costs of $211,000 per year related to the
     NISH Program.




                                          4
                                                               Food Service Contracts



    The NISH Program costs included in the Vandenburg Air Force Base contract
    price provided a higher cost on health and welfare benefits for handicapped
    employees and an administration fee for NISH. The health and welfare benefits
    cost was higher under the NISH contract because NISH employees at
    Vandenburg were hired and paid on the basis of a productivity rate of
    75 percent; however, they received full heath and welfare benefits, resulting in
    a more costly benefit package. Also, NISH charged a 4 percent administration
    fee of $124,000 that was consistent with rates established by the Committee.

            Sheppard Air Force Base. The price of $6.8 million per year on the food
    service contract at Sheppard Air Force Base, Texas, was consistent with pricing
    guidelines established by the Committee. Actual contract costs representing
    99 percent of the contract price differed by less than 1 percent from those in the
    contract. The price included costs of $270,000 related to the 4 percent
    administration fee charged by NISH.


Appropriated Funds
    For the contracts we reviewed, DOD properly used funds appropriated for food
    service contracts at DOD dining facilities. Based on discussions with contracting
    and payment officials and contract reviews, we found no indication that DOD
    diverted funds appropriated for DOD dining facilities to fund nonappropriated
    activities.


Randolph-Sheppard Priority
    We could not determine whether the Randolph-Sheppard Act grants priority to
    blind managers when awarding food service contracts at DOD dining facilities.
    The Act states that blind individuals should receive priority when awarding
    cafeteria contracts but it does not specify that the priority applies to food service
    contracts at DOD dining facilities. Although DOD policy generally supports the
    Randolph-Sheppard Program regarding cafeteria operation, senior DOD officials
    disagree with a Comptroller General opinion. The opinion concluded that
    military troop dining facilities are “cafeterias” within the definition of dining
    facility contracts under the Act. To clarify the applicability of the law, DOD
    proposed legislation that would amend the Randolph-Sheppard Act to exclude
    military troop dining facilities from the definition of cafeteria. See Appendix B
    for excerpts from the Randolph-Sheppard Act and the proposed
    DOD amendment.




                                          5
Food Service Contracts



Management Comments on the Finding and Audit Response
      Management Comments on the Randolph-Sheppard Contract at Fort
      Campbell. The Acting Assistant Secretary of the Army (Research,
      Development, and Acquisition) disagreed that Fort Campbell paid a fair and
      reasonable price for the Randolph-Sheppard contract stating that there were four
      contractor proposals with a lower price than the proposal submitted by the
      Randolph-Sheppard contractor. The lower-priced proposals were not considered
      because of the priority given to the Randolph-Sheppard contractor.

      Audit Response. The Acting Assistant Secretary’s comments are incorrect.
      We agree that four contractors submitted proposals with a lower price than the
      Randolph-Sheppard contractor; however, only one of the four contractors was
      considered qualified to perform the contract. The contract was awarded using a
      best value selection practice that considered quality substantially more important
      than price. Of 18 proposals received, 10 were considered fully acceptable from
      a quality aspect. Only 1 of the 10 qualified proposals had a price lower than the
      Randolph-Sheppard contractor. Based on price analysis, the contracting officer
      determined that the lower-priced proposal was not fair and reasonable because
      the proposal had substantially less hours than the Government estimate and
      40,000 hours less than the proposal submitted by the Randolph-Sheppard
      contractor. Federal Acquisition Regulation 15.403-3, “Requiring information
      other than cost or pricing data, n states that when adequate price competition
      exists, no additional information is necessary to determine the reasonableness of
      price. The contracting officer determination that the Randolph-Sheppard
      contractor’s price was fair and reasonable was based on price analysis and
      adequate price competition.

      We disagree that the lower-priced proposals were not considered because
      priority was given to the Randolph-Sheppard contractor. In the business
      clearance memorandum, the contracting officer stated the following.

                     Under the Randolph-Sheppard Act, KD/B [KCI’INCky
                     Division for the Blind, referred to in the audit report as the
                     Randolph-Sheppard contractor] was to receive any award if
                     determined to be within the competitive range; however,
                     KD/B would have been determined to offer the best value to
                     the Government and awarded a contract without the priority
                     consideration.

      If the Acting Assistant Secretary disagrees with the best value selection practices
      used by the Fort Campbell contracting officer, or other Army contracting
      offkers, the Acting Assistant Secretary should initiate actions to correct the
      problem.




                                               6
                                                                Food Service Contracts



Management Comments on Selection of Fort Campbell as Audit Site. The
Acting Assistant Secretary questioned our conclusion that it paid fair and
reasonable prices for food services at military dining facilities because we
reviewed only one contract. Application of the Act has adversely impacted
several solicitations and contracts for these services, such as the recent contract
award at Redstone Arsenal.

Audit Response. At the time of our audit, the Army had three military dining
facility food service contracts that were awarded under the Randolph-Sheppard
Program. The dining facilities were located at Fort Campbell, Fort Sam
Houston, and Fort McClellan. We selected Fort Campbell because the Army
identified that contract as the most glaring example of excessive prices. Based
on the results of our review at Fort Campbell and information obtained from the
contracting offices at Fort Sam Houston and Fort McClellan, we determined
that additional audit work was not warranted.

The Acting Assistant Secretary’s statement that several solicitations and
contracts were adversely impacted by the Act and its rules is unsupported.
Documentation obtained from the contracting offices at Fort Sam Houston and
Fort McClellan showed that Randolph-Sheppard contractors provided food
services to Army dining facilities at the best value or the lowest price. At
Fort Sam Houston, the Randolph-Sheppard contractor received the highest
quality rating of the 11 contractors that responded to the solicitation. Although
four contractors proposed a lower price than the Randolph-Sheppard contractor,
they received marginal to unsatisfactory quality ratings because of inadequate
proposed staffing. If adequate staffing were proposed, the four contractor’s
prices would have been higher than the Randolph-Sheppard contractor. When
comparing the price proposed by four contractors receiving outstanding quality
ratings to the price proposed by the Randolph-Sheppard contractor, the business
clearance memorandum stated the following.

               The proposed price from the Commission [Texas
               Commission for the Blind is the Randolph-Sheppard
               contractor] was approximately 3 96 to 8 9%lower than three
               other offerors whose technical merit was also rated
               Outstanding and 17 96 lower than the other offeror receiving
               an Outstanding rating.

At Fort McClellan, only two of eight contractors submitted proposals that were
in the competitive range. Of the two contractors, the Randolph-Sheppard
contractor proposed the lower price.

Based on the results of our review at Fort Campbell and the additional review of
the two remaining dining facility contracts, we maintain our position that the
Army obtained fair and reasonable prices for contracts awarded under the
Randolph-Sheppard Program. We did not include the Redstone Arsenal dining
facility contract in our audit because it was awarded in FY 1998, after our audit
field work was completed.
Food Service Contracts

      Management Comments on the Randolph-Sheppard Act. The Acting
      Assistant Secretary’s position is that the Randolph-Sheppard Act does not apply
      to food service contracts at military dining facilities.

      Audit Response. At a June 11, 1997 entrance conference, the Acting Assistant
      Secretary requested, and we agreed, that we should not attempt to take a
      position on this legal issue because DOD planned to submit legislation to clarify
      the applicability of the Randolph-Sheppard Act to food service contracts at
      military dining facilities.




                                           8
Part II - Additional Information
Appendix A. Audit Process

Scope and Methodology
    For our review, we selected one contract from a total of five Randolph-
    Sheppard food service contracts valued at $20.3 million per year. The contract
    provided food service at the Army dining facility in FY 1997 and four option
    years, valued at $3.4 million per year.

    To determine whether prices on the Randolph-Sheppard contract for DOD food
    services were fair and reasonable, we compared the successful bidder’s proposal
    with others in the competitive range. We visited the Army contracting office at
    Fort Campbell, Kentucky, and reviewed preaward documents for the contract
    including: requirements documents, Government cost estimates, and contractor
    cost proposals. We also visited the contractor and reviewed financial
    accounting records and dining facility meal counts.

    For our review of NISH contracts, we selected two Air Force contracts valued
    at $9.9 million per year from a total of seven full-food service contracts valued
    at $17.9 million per year. We selected only full-food service contracts to be
    consistent with DOD dining facility contracts awarded under the Randolph-
    Sheppard Program. We did not select Army and Navy contracts for review
    because Army contracts accounted for only 8 percent of the total dollars, and
    the Navy did not use full-food service at its dining facilities.

    To determine whether prices on NISH contracts for DOD food service were fair
    and reasonable, we visited Vandenburg Air Force Base, California, and
    Sheppard Air Force Base, Texas. At each location, we reviewed contract price
    proposals and compared them to the Committee’s pricing guidelines.
    Additionally, we visited the contractors and compared their cost proposals to
    actual costs incurred.

    To determine whether DOD properly used funds appropriated for DOD dining
    facilities, we reviewed FY 1997 payment vouchers at DOD contracting offices
    and contacted DOD payment officials.

    Use of Computer-Processed Data. To achieve the audit objective, we relied
    on computer-processed financial accounting data at contractor locations. We
    conducted tests of the data by tracing sampled transactions from the general
    ledger to source documents. We concluded that the computer-processed data
    are suffkiently reliable for use in meeting the audit objective.




                                        10
                                                        Appendix A. Audit Process



    Audit Type, Dates, and Standards. We performed this program audit from
    June 1997 through January 1998 in accordance with auditing standards issued by
    the Comptroller General of the United States, as implemented by the Inspector
    General, DOD. Accordingly, we included tests of management controls
    considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DOD and:

           l   the Committee for Purchase From People Who Are Blind or Severely
               Disabled, Arlington, Virginia;

           l   the Department of Education, Washington, D.C.;

           l   NISH, Vienna, Virginia; and

           l   Randolph-Sheppard and NISH contractors at Fort Campbell,
               Kentucky, Vandenburg Air Force Base, California, and
               Sheppard Air Force Base, Texas.

    Additional information is available upon request.

    Prior Coverage. We found no recent audit coverage relating to the
    Randolph-Sheppard or NISH Programs.


Management Control Program
    DOD Directive 5010.38, “Management Control Program,” August 26, 1996,
    require DOD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of management controls over contract management and
    administration. Specifically, we reviewed management controls over the
    selection of Randolph-Sheppard and NISH vendors and the evaluation of
    contractor proposals. We also reviewed management controls over contractor
    performance and payment procedures. Because we did not identify any material
    weakness, we did not assess the adequacy of management’s self-evaluation of
    those controls.

    Adequacy of Management Controls. Management controls over contract
    management and administration were adequate as they applied to the audit
    objectives.




                                        11
Appendix B. Randolph-Sheppard Act Excerpts
and Proposed DOD Amendment to the Act

Randolph-Sheppard        Act

            Title 20, U.S. Code

            Chapter 6A, 107. Operation of vending facilities authorized;
            preferences regulations; justification for limitation on such operation.
                 (a) For the purposes of providing blind persons with
            remunerative employment, enlarging the economic opportunities of
            the blind, and stimulating the blind to greater efforts in striving to
            make themselves self-supporting, blind persons licensed under the
            provisions of this chapter shall be authorized to operate vending
            facilities on any Federal property.
                  (b) In authorizing the operation of vending facilities on Federal
            property, priority shall be given to blind persons licensed by a State
            agency as provided in this chapter. . . .

            107d-3
                 (e) Regulations establishing priority for operation of cafeterias
            The Secretary, through the Commissioner, shall prescribe regulations
            to establish a priority for the operation of cafeterias on Federal
            property by blind licensees when he determines, on an individual
            basis and after consultation with the head of the appropriate
            installation, that such operation can be provided at a reasonable cost
            with food of a high quality comparable to that currently provided to
            employees, whether by contract or otherwise.

            107e.(7) “vending facility” means automatic vending machines,
            cafeterias, snack bars, cart services, shelters, counters, and such other
            appropriate auxiliary equipment as the secretary may by regulation
            prescribe as being necessary for the sale of the articles or services
            described in section 107a(a)(5) of this title and which may be operated
            by blind licensees. . . .




                                           12
Appendix B. Randolph-Sheppard Act Excerpts and Proposed DOD Amendment to
                                                                 the Act



Proposed DOD Amendment to the Act


                  DEFINITION    OF CAFETERIA        IN THE RANDOLPH-SHEPPARD               ACT


        Section   107 of titie 29. United States Code is amended         as follows:

        §107d-3. Vending machine income
        (a) thru (d) no change
                  (e) Regulations      establishing pnority for operation of cafeterias.
        The Secretary, through the Commissioner.            shall prescribe re utations to es:ablish a
        priority for the operation of cafeterias, except Department           of ?I efense military troop
         dining   facilities. military mess halls, or other similar military dining facilities. on Federal
         property by blind licensees when he de.,+=rmines, on an individual basis and after
         consultation       with the head of the appropriate installation, that such operation can be
         provided at a reasonable         cost with food of a high quality comparable to that currently
         provided to employees,          whether by contract or otherwise.
          (f) thru (a) no change
          5 1Oie. Definitions
          As used in this chapter - -
                   (1)        thru (6) no change
                    (7) “vending facility” means automatic vending machines, cafe!erias. except
           Depafiment       of Defense mrlrtary troop dining facilities. military mess halls, or other
           similar military dining facilities. opera:ed under contracts usrng appropriated           funds.
           snack tars, can services. shelters. counters. and such other appropriate               auxiliary
           equipment       as the Secre!ary may by regulation prescrrbe as being necessary for tne sa!e
           of the articles or services described In sectron lOia(a)(5)         of thus title and which may be
           cperated by blind licensees, and
            (6) no change

                                                Sectional     Analysis

                   The definition of caft?eria introduced by amendment      into the Randolph-Sheppard
          Act (the Act) in 1074   is too broad, and was interpreted in 1993. twenty years later, to
          include military dining faclktlas. While mdi!ary chning facilities may resemble czfe!er;es.
          they are not vending facilities. i.e. payment for food is not made by the consumer.
           Food service contracts for the operatron mrlrtary dining facilities use appropriated      funds
           and are acquired using the procedures in the Federal Acquisition         Regulation. neither of
           which circumstances     were intended when the Act was amended in 1074 to include
           cafe:e:ias as a vending facility

                     The lack of clarity in the definition of which vending facilities may properly be
            classified as cafeterias for the purposes of the Act. has brought the Department        of
            Defense into direct conflict with StatZ Licensing Agencies for the blind and the
            Department     of Education. the Agency that implements the Act. These disputes have
            resulted in costly Federal Court suites and arbitration actions between the parties.

                     The application of the Act to appropriated     funded contracting actions has else
            resulted in the expenditure     of those funds in excess of that which were necessary to
            acquire the food services competitively.      Additionally,  the Department  of Defense’s
            small business and small disadvantaged         business programs, as well as the
             Javits-Wawer-O’Dav       orosram in surxort of oersons who are blind and severelv
             disabled are adversely impacted when the Act is used to assert a priority over military
             dinmg facility services.

                       The requested amendment is required to correct the deficiencies  cited above 2nd
              to return sound business practices to the acquisition of food services for mrlitary dining
              facilities.




                                                         13
Appendix C. Report Distribution


Offke of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
   Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
Assistant Secretary of Defense (Force Management Policy)
Assistant Secretary of Defense (Public Affairs)
Director, Defense Procurement

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency

Non-Defense Federal Organizations and Individuals
Inspector General, U.S. Department of Education
Immediate Office of the Commissioner, Rehabilitation Services Administration, Office of
   Special Education and Rehabilitative Services, U.S. Department of Education
OfTice of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office
Committee for Purchase From People Who Are Blind or Severely Disabled




                                           14
                                                    Appendix C. Report Distribution




Non-Defense Federal Organizations and Individuals (cont’d)
Chairman and ranking minority member of each of the following congressional committees
  and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal Justice,
     Committee on Government Reform and Oversight
  House Committee on National Security




                                           15
Part III - Management Comments
Department of the Army Comments


                                  DEPARTMENT OF THE ARMY
                                OFFICL:OF TWt ASSISTINTSECRETARY
                              RESEARCH DEVEU)PNENT   AND ACQUISITION
                                        105 ARMY CENTIMN
                                     WASMIMGTON DC 10J10-0103




       SARD-F’S


       MEMORANDUM FOR THE ASSISTANT INSPECTOR GENERAL FOR
                        AUDITING, DEPARTMENT OF DEFENSE

       SUBJECT: Draft Audit Report; Food Service Contracts at DOD Dining
                Facilities, Project No. 7CK-5W5


                 The enclosed comments are recommended for adoption in the final
       report.

                 The Randolph-Sheppard Act was amended in 1974 lo include
       ‘cafeterias” among the vending facilities for which the blind are given an
       operating priority; however, the Act was never intended to govern source
       selection for appropriated fund military dining facility contracts - even after the
        1974 amendment. Appropriated fund military dining facilities are not vending
       facilities; rather, in such military dining facilities food is served free to eligible
       service members. Appropriated fund military dining facilities are not the
       cafeterias intended to be covered by the Act, and are not subject to the Act’s
       contracting preferences.

                 Disagreement over the scope of the Act has been the cause of costly
       litigation in recent years. Additionally. the Department of Defense’s small
       business and small disadvantaged business programs, as well as the Javits-
       Wagner-O’Day program in support of persons who are blind and severely
       disabled, are adversely impacted when the Act is used to assert a source
       selection priority for appropriated fund military dining facility contracts. A more
       complete explanation of our position and recommended changes to the draft
       report are included in the enclosed comments.

              We also note that your conclusions regarding prices paid for food
       services in military dining facilities were based on a sample of one contract.
       There have been several solicitations and contracts for these services, which
       were adversely impacted by application of the Act and its rules. The enclosed
       comments offer information that you should consider in reaching conclusions
       regarding the contract at Fort Campbell and several others that were not
       included in the audit.




                                                 18
                                       Department of the Army Comments




My point of contact for thh report Is Ray Kelly. (703) 681-7583.




                                   Ken&h J. Oscar
                        Acting Assistant Secretary of the Amy
                      (Research. Dewkpnent and Acquisition)

Enctosure
               Department of the Army Comments




Final Report
 Reference




                                  Commenta and auggerted addition8 and deletiona recommended
                                    for adoption in the final report (Project No. 7CK6045).

                                The report title should be changed to “Food Service Contracts at DOD
                          Appropriated Fund Military Dining Facilities.’ This will eliminate potential
                          confusion between DOD non-appropriatedfund dining facilities, such as the
                          vending cafeterias operated in the Pentagon, and DOD appropriated fund
                          milky dining facilities -the true focus of the report. Note that this distinction
                          should be observed throughoutthe report.




                          First Sentence. The phrase I. . . awarded under Randolph-Sheppard and fhe
                          Nalional Institutes for the Severely Handicapped. . . in order to be
                                                                                 l



                          technically currect should read “awarded under the Randolph Sheppard social
                          program and under fhe NISwJavits-Wagner-O’Day Ad (JWOD) mandatory
                          source procurement pmgmm.” Note that the acronym NISH is now substituted
                          for the former title - please pick up this change throughoutthe report. The
                          JWOD is implemented at FAR Part 8, Subchapter 6. and NISH is a
                          component of the JWOD program. Further note that the Randolph-Sheppard
                          Act (R-S Act) is not implemented in Federal AcquisitionRegulation (FAR), one
                          indication that it is not intended to apply to appropriated fund contracts.

Revised                   Second sentence should read “The programs provide employmenf
                          opportunities to severely disabled and blind individuals. ” The term
                          ‘handicapped” is no longer used in the JWOD program - please apply lhe
                          current terminology throughoutthe draft.

                          Fourth sentence should conclude either I. . . awarding food sewice contracts
                          at DOD vending facilities.’ or * . . . requirements that purportedly give priority
                          to blind managers when awarding food setvice contracts at DOD appropriafed
                          fund miiitaty facilities.”



                          Second sentence. Substitute VWOD/NISH Programs” for ‘National Institutes
                          for the Severely Handicapped Programs’ per comment above.

Revised                   Third Sentence. Recommend deletion of the sentence or replacement of the
                          term komp/iance.” Please address this concern throughoutthe report. The
                          sentence suggests that the scope of the R-S Act is clearly established. It is
                          also not dear how and where the review of compliance was conducted.




                                                                  20
                                             Department of the Army Comments




       The Audit results regarding prices paid by the Army for contracts
awarded to State Licensing Agencies under the R-S Act appear either ftawed
or insufficiently precise. Whereas the report declines to comment on the
advisability of applying the R-S Act contracting priority to appropriated fund
contracts, the report tacitly supports the use of this priority for the appropri-
ated fund military dining facility food service contract at Fort Campbell when it
states that the Army paid a fair and reasonable price for the services. The
State Licensing Agency’s (SlA) offer was 816.9M. which was f3.14M higher
than the lowest offeror of $13.7&l. There were a total of four offers lower
than the StA. The contract was apparently awarded through an imperfect
combination of FAR procedures and the R-S Act priority. While the procure-
ment ostensibly followed best value procedures, negotiations were held only
with the SLA, resulting in an upward adjustment of the price. In short, the Fort
Campbell appropriated fund food service contract was neither sufficiently
described, nor fully evaluated in the report.

       We question the conclusion that the Army pays fair and reasonable
prices for appropriated fund military dining facility services under the R-S Act.
Apparently, only the Fort Campbell contract was reviewed, and the report does
not elucidate the basis for its conclusion. FAR 15.8052 “Price Analysis’
enumerates six methods for detenining whether or not a price is fair and
reasonable; it is unclear which of these methods may have been used by the
auditor in arriving at the conclusion that prices paid by Fort Campbell were fair
and reasonable. The first price analysis method listed at FAR 15.805-2 is a
comparison of proposed prices received in response to the solicitation; as
described above, the SLA’s offer was nowhere near the four lowest offers.
One can also examine historical prices for the same (or similar) procurements,
apply rough yardsticks to highlight inconsistencies, compare an offer with
other published/known prices, compare an offer with independent Government
cost estimates, or compare an offer with prices obtained through market
research. Objectively, and without applying the R-S Act contract priority, it
would appear that none of these methods could yield the conclusion reached
by the report.

       More recently, the contracting oftice at Redstone Arsenal awarded a
contract using the R-S Act’s contracting priority to the Alabama SLA. DAAHOJ-
97-C-9025 for $7,461,868. There were four lower offers; the lowest was
$6.179,977. This award reflected a potential premium of $1.2 million to the
SLA that is justified by nothing more than the (mis)application of the R-S Act
contracting priority to an appropriated fund contract. Rote that award to the
SLA also thwarts the competition requirements and socioeconomic programs
that are mandated by the Competition in Contracting Act (CICA). the Small
Business Act (SBA), and JWOD - and that are embodied in the FAR. At the
time your office called for data, this award had not been made.
DeDartment of the Armv Comments




                                                                                               Final Report
                                                                                                Reference




           it is our view that the prices patd to SLA’s are often not fair end reason-able.
           These prices resuit from the mtsappilcatlon of the R-S contracting priodty
           through DOD’s usa of regulatkms drafted by the Department of Education. In
           cases where tha Act’s contracting priority is applied, DODD 1125.3 mandates
           contract award to a SLA if the SLA’s offer is wlthin the competitive range.
           While the requirement to award a contract to the StA when their offer is within
           the competttive range does not necessarily mean that a contract with the SlA
           will not result in fair and reasonable prices, in many cases, application of the
           R-S Act contracting priortty thwarts CICA’s emphasis on cost and value - and
           ten prevent the proanement from being earmarked for the socioeconomic
           programs established by JWOD and SBA.

           See comments at ‘Randolph-Sheppard Priority.’

                                      PART I _AUDIT RFWLIS

                                                                                               Unknown
                    Delete ‘esstgn milifary personnel to positbtw       as oook and
           cas/?ier.” Contracts for Attendant services are not likely to include provlsions
           for miiitary staffing.

                  3. Da
                   The Comptroller General Report [See &U~UUUM                 Air Focge~
                                                                                               Page 3
           Reconsideration, B-250465.6 et. al., (June 4,1993)] gave insuffkient welght to
           the clear language of the R-S Act and to the intent of Congress in passing the
           statute and its amendment. The Act states that it applies to vending hMties,
           and lts legislative history indicates that vending facilities am not appropriated
           fund facilities. The Comptroller General’s opinion focused on the definltion of
           ‘cafeteria,’ a term added to the Act by amendment In 1974. The Comptroller
           General opinion failed to acknowledge that the term cafeteria must ba read as
           a subset of the larger subject of the statute - vending facilities.

                                                                                               Page 4
                  We believe that there is insufficient documentation/analysis to support a
           determination that the Army paM fair and reasonable prices for appropriated
           fund military dining facilities awarded under the Randolph-Sheppard Program
           - see comments above regarding Fort Campbell. Also, without an evaluation
           of the applicability of R-S contracting preferences, it would appear impossible
           to evaluate whether or not the contracts wera awarded ln accordance with
           applicable laws and ragulations. Note that the price for the contract examined
           at Fort Campbell was not detemined in accordance with FAR procedures
           governing tha expendiin3 of appropriated funds.

                              PdlXi8~
                  There Is insuffkzient documentationlanalysls of the Fort Campbell
           contract award.




                                                  22
                                               Department of the Army Comments




                                                                                      Final ReDort
                                                                                       Refereke




      Them is insufficientdocumentation/analysisof the Ft. Campbell
contract award.

       6. m       -                                                                   Page 5
        The purpose of the R-S Act at Title 20. Chapter 94, s
      . .              . .
far                           b to provide blind per50ns with   rwnunerathm
employment   by authorizing t&n    to opemte vending facilities on   Federal
property.

        The Act states that the operation of vending facitiies is Yor the wending
of newspapers, perlodicab. confections.tobacco producht,foods, bevera~e5
and other articles or servkes dispensed automaticallyor manually . . .. 20
U.S.C. Section 107a(a)5 (emphasis added.).       Vending ts the transfer to another
for pecuniary equivalent, . . to sell. See BLACK’S LAW DfCTlONARY 1555
(6’ Ed. 1990). Military dining faciUtte5are nut vending facffii; nothing i5
transferred to the conSumarby immediate sale. The primary mk5ion of a
mititarydining facility is to dispense food to eligible oonsuming5oldiar5, who
do not pay for their meals. This mksion may be accomplished by militaryor
civllian Government personnel, or by contractwtth a commercial firm for a
specifkd period of time using appropriatedfunds - in which case both the
FAR and department specific supplement5would apply.

       Since its passage in 1938, the R-S Act has been propertyapplied to
vending faciliiies operated by the blind on federal property,who profitfrom
ceiling food and other items to federal employees or the vising public. The
authors of the Act did not create a preference in the Act for blind vendor5 to
operate facBtie5 that do not engage 51 vending.

        The R-S Act was amended in 1974 to in&de ‘cafeterias’ in the iisttn~
of vending facilities. Relevant DOD and Army regulationswere also amended
to reflect the change. Twenty year5 after the amendment5 passage. inappro-
priate interpretationsof 111eamendment have broughtDOD Into direct conflict
both with State LicensingAgencieg for the blind and wtth the DDE. These
dlsput55 have resulted in costly Federal Court 5ult5 and arbltrationpro
ceediis. The act was not intended for u5e when contracttngfor 5efvices in
military dining facilities wtth appqrtatad funds.

       Athoroughexaminetbnof~~af(heR-SAdisattachedtot~e
comments. We respectfullyrequest that It be included as an appendix to the
nspolt.

Endosure                                                                              Not included




                                        23
Audit Team Members

This report was prepared by the Contract Management Directorate, Office of
the Assistant Inspector General for Auditing, DOD

Paul J. Granetto
Joseph P. Doyle
Ronald W. Hodges
Myra M. Frank
Galf-iid S. OK
Wilbur Broadus
Brian C. Filer
